Office of Inspector General
U.S. Department of Labor
Office of Audit




                     Welfare-to-Work
                     Competitive Grant
                   Program Performance
                          Audit




                             Report Number: 03-01-007-03-386
                             Date Issued: September 28, 2001
Welfare-to-Work Competitive Grant Program Performance Audit


                                             TABLE OF CONTENTS
                                                                                                                              Page

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS

I.    Competitive Grantees Need to Improve Services to WtW Participants
      to Ensure Long-Term Employment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

           One-Quarter of the Sample Participants Worked 6 or More
           Months in Unsubsidized Employment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

           Participants’ Current Work Status Varied . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

           Participants in Unsubsidized Employment Earned
           Average Hourly Wages of $7.36 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

           Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

II. WtW Competitive Grant Program Performance Data Are Not Reliable
    and the Current Evaluation Approach May Not Be Sufficient to Assess the
    Program as a Whole . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

           Competitive Grantees Did Not Report Accurate
           Performance Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

           ETA’s Grantee Monitoring Visits Did Not Include
           a Detailed Review of the Reported Performance Data . . . . . . . . . . . . . . . . . . . . . . . . . 19

           Unreliable Competitive Grant Data May Affect
           the Overall GPRA Performance Measure Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

           Evaluation Studies Will Not Provide the Information
           Necessary to Determine Which Innovative Approaches Worked . . . . . . . . . . . . . . . . . 20

           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22



U.S. Department of Labor - Office of Inspector General                                                                       Page i
Welfare-to-Work Competitive Grant Program Performance Audit

OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

    Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       23
    Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    23
    Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          26
    Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   27

APPENDICES

    A. WtW Competitive Grantees Audited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

    B. Results of Statistical Samples . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

    C. Agency’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




U.S. Department of Labor - Office of Inspector General                                                                              Page ii
Welfare-to-Work Competitive Grant Program Performance Audit




                                     ACRONYMS


       BBA                 Balanced Budget Act of 1997

       DHHS                U.S. Department of Health and Human Services

       DOL                 U.S. Department of Labor

       ETA                 Employment and Training Administration

       FSR                 Financial Status Report

       FY                  Fiscal Year

       GPRA                Government Performance and Results Act

       GOTR                Grant Officer’s Technical Representative

       OIG                 Office of Inspector General

       PRWORA              Personal Responsibility and Work Opportunity Reconciliation Act
                           of 1996

       TANF                Temporary Assistance for Needy Families

       UI                  Unemployment Insurance

       WtW                 Welfare-to-Work




U.S. Department of Labor - Office of Inspector General                              Page iii
Welfare-to-Work Competitive Grant Program Performance Audit


                               EXECUTIVE SUMMARY

The purpose of the Welfare-to-Work (WtW) program, which was authorized by the Balanced
Budget Act of 1997 (BBA), is to prepare hard-to-employ long-term welfare recipients and other
eligible individuals for, and place them into, lasting unsubsidized employment. WtW activities
should be grounded in the “work-first” philosophy of the Temporary Assistance for Needy
Families (TANF) program established under the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (PRWORA), the legislative centerpiece of welfare reform. The BBA
authorized $3 billion for WtW grants in Fiscal Years (FYs) 1998 and 1999. Of this amount,
approximately $700 million was awarded to grantees selected through a competitive grant process
carried out in three separate rounds, with the remainder distributed by formula to the states.
Competitive grants were intended to develop innovative approaches to serve the targeted
population. The U.S. Department of Labor’s (DOL) Employment and Training Administration
(ETA) is responsible for administering the WtW program at the Federal level.

The Office of Inspector General (OIG) performed an audit to assess the effectiveness of the WtW
competitive grant program. Our audit scope included performance data reported by 19 randomly
selected, first- and second-round competitive grantees as of September 30, 2000. In addition, we
analyzed employment and earnings outcomes obtained for a random sample of 765 participants
served by the 19 grantees we audited.

                              The purpose of WtW is to place individuals in lasting unsubsidized
 Program Outcomes
                              employment. Yet, we found only 191, or one-quarter, of the 765
                              participants in our sample were documented as continuously
employed more than 6 months, whether in one or more jobs. Overall 59 percent (451 of 765) of
the sample participants worked in unsubsidized employment at some point during or after their
participation, and 31 percent (241 of 765) of the total, were still employed at the time of our
audit. The case files for 418 of the 451 employed participants noted hourly wage rates, which we
did not confirm, that averaged $7.36. Three quarters of the employed participants worked 30
hours or more per week. It should be noted that, at the time of our audit, the grantees did not
know the current employment status of 110, or one out of four, of the 451 employed participants
in our sample.

                            We concluded that the reported program data was not reliable. We
 Performance Data
                            found significant errors in data that contributed to ETA’s computed
 and Evaluation
                            WtW performance measures. Specifically, we project that the
                            number of competitive grant participants reported as placed in
                            unsubsidized employment by the 122 competitive grantees in our
universe was overstated by 43 percent. We also project that the number of participants reported
as retained 6 months in unsubsidized employment was overstated by 86 percent.




U.S. Department of Labor - Office of Inspector General                                   Page 1
Welfare-to-Work Competitive Grant Program Performance Audit

We further found that 13 of the 17 sample grantees that reported earnings gains to ETA used
improper and unsupportable methodologies to compute the measure, and that 11 grantees
reported earnings gains on a cumulative, rather than quarter-by-quarter, basis, contrary to
reporting instructions.

Most grantees in our sample did not report consistent and accurate performance data because
they did not maintain accurate records and/or they did not understand, or did not adhere to, the
definitions of individual data elements included in ETA’s reporting instructions. We also found
that, while ETA had made numerous efforts to train grantees concerning the reporting
requirements, ETA’s monitoring visits did not include attempts to verify the accuracy and
completeness of reported performance data. The monitoring guide used by ETA staff does not
require grantee records to be reviewed to determine the accuracy or completeness of performance
data reported on the grantees’ Financial Status Reports, which include both financial and
performance information.

Finally, we found that WtW evaluation studies, current and planned, will not provide ETA with
the information necessary to determine which innovative approaches or interventions worked and
which did not. New and innovative approaches for moving welfare recipients into lasting
employment was one of the underlying purposes of the competitive grant program. The
evaluations only measure specific grantee operations that may not necessarily reflect the WtW
competitive grant program as a whole.

                            To improve services to those participants served by WtW grantees
 Recommendations
                            and provide a solid foundation for evaluating the WtW competitive
                            grant program, we recommend that the Assistant Secretary for
Employment and Training:

   1. require grantees to follow up with participants in unsubsidized employment to determine if
      additional services are needed to assure employment retention;

   2. conduct data validation reviews at the grantee level to ensure that the performance data
      being reported are accurate and complete; and

   3. work with the U.S. Department of Health and Human Services to reexamine the current
      approach being used to evaluate the WtW competitive grant program. We recommend
      that a national evaluation be designed to assess the innovative approaches being used to
      move welfare recipients from welfare dependency to economic self-sufficiency.




U.S. Department of Labor - Office of Inspector General                                    Page 2
Welfare-to-Work Competitive Grant Program Performance Audit

                            In the response to our draft report, the Assistant Secretary for
 Agency’s Response
                            Employment and Training agreed with each of the reported
                            recommendations and will act upon them. Specifically, ETA will:

   1. work with competitive grantees to assure that they do a better job of following up with
      participants in unsubsidized employment to determine if additional services are needed to
      assure employment retention;

   2. carry out their previously planned second stage of monitoring by conducting data
      validation reviews at the grantee level to ensure that the performance data being reported
      are accurate and complete; and

   3. work with the U.S. Department of Health and Human Services to re-examine the current
      approach being used to evaluate the WtW competitive grant program in order to assure
      that innovative approaches being used to move welfare recipients from welfare
      dependency to economic self-sufficiency are identified and assessed.

The response also included a number of issues discussed at our exit conference that ETA believed
needed to appear in the body of the report to provide a full and fair context of the findings.
ETA’s entire response is included as Appendix C in the report.

                           The actions ETA proposed to take generally satisfy the report’s
 Auditor’s Conclusion
                           recommendations. The recommendations can be resolved when
                           ETA provides an action plan detailing the specific steps to be taken
along with proposed completion dates. We concluded that the additional comments provided in
ETA’s response did not change the report’s findings and recommendations.




U.S. Department of Labor - Office of Inspector General                                    Page 3
Welfare-to-Work Competitive Grant Program Performance Audit


                                       BACKGROUND

PRWORA, enacted August 22, 1996, is a comprehensive welfare reform bill under which the
Temporary Assistance for Needy Families (TANF) program was established to supersede the Aid
to Families with Dependent Children program, the Job Opportunities and Basic Skills Training
program, and the Emergency Assistance program. The TANF provisions substantially changed
the Nation’s welfare system from one in which cash assistance was provided on an entitlement
basis to a system in which the primary focus is moving welfare recipients to work and promoting
family responsibility.

On August 5, 1997, the President signed the BBA. This legislation amended certain TANF
provisions and authorized the Secretary of Labor to provide WtW grants to states and local
communities for transitional employment assistance to move hard-to-employ TANF recipients
into lasting unsubsidized jobs and economic self-sufficiency. WtW activities should be grounded
in the “work-first” philosophy of TANF. The BBA authorized $3 billion for WtW grants in FYs
1998 and 1999. After certain set-asides, 25 percent, or approximately $700 million, was
distributed through a competitive grant process and 75 percent by formula grants to the states.

Competitive grants were intended to develop innovative approaches to serve WtW’s targeted
population. Specifically, ETA’s solicitation for competitive grants stated that the projects were
expected to achieve the purpose of all WtW grants — to provide transitional assistance which
moves welfare recipients into unsubsidized employment providing good career potential for
achieving economic self-sufficiency. The solicitation also stated that in the review and selection
of applications for grant award, one of the criteria would be innovation, and it would comprise 20
of 100 assigned points. The solicitation defined innovation as the extent to which the project
incorporates new and better strategies for moving welfare recipients into lasting unsubsidized
employment leading to economic self-sufficiency. These strategies can include, but are not limited
to, new and better ways that services can be accessed by participants in the local community, new
and better ways for local organizations to work together, or the replication of effective strategies
in a new setting.

ETA published an Interim Final Rule in the Federal Register on November 18, 1997,
implementing the WtW grant provisions of Title IV, Part A, of the Social Security Act as
amended by the enactment of the BBA. In late 1999, technical and other amendments were
enacted to the WtW statute. On December 21, 2000, the President signed into law the
Consolidated Appropriations Act of 2001, which included, with DOL’s FY 2001 appropriations, a
2-year extension to the WtW program. All grantees, both competitive and formula, are eligible
for the extension of their grants. On January 11, 2001, ETA published the Final Rule in the
Federal Register, effective April 2001, with an Interim Final Rule implementing the 1999
Amendments.




U.S. Department of Labor - Office of Inspector General                                      Page 4
Welfare-to-Work Competitive Grant Program Performance Audit

WtW grantees are required to report financial and performance data to ETA quarterly. The data
is transmitted over the internet and reported on the Quarterly Financial Status Report (FSR) -
form ETA 9068-1.

The WtW legislation established the following outcome measures:

   1. placements in unsubsidized employment, and placements in unsubsidized employment that
      last at least 6 months,

   2. placements in the private and public sectors,

   3. earnings of individuals who obtain employment, and

   4. average expenditures per placement.

ETA’s Annual Performance Plan, required under the Government Performance and Results Act
(GPRA), includes two performance goals for the WtW program. These performance goals and
measures for FY 2000 are:

   1. sixty percent of the WtW participants placed in unsubsidized employment will remain in
      the workforce for two consecutive quarters following the date of placement, and

   2. these WtW participants will have a 5 percent average earnings increase by the second
      consecutive quarter following the placement.

In the DOL 2000 Annual Report on Performance and Accountability, ETA reported that of those
WtW participants placed in unsubsidized employment by competitive and formula grantees,
84 percent remained in the workforce for at least 6 months or more with a 59 percent average
increase in earnings by the second consecutive quarter following the placement quarter. The
report acknowledged that the 59 percent earnings gain appears to be inflated due to inconsistent
grantee reporting.

The U.S. Department of Health and Human Services (DHHS) is responsible for conducting a
national evaluation of the WtW program. ETA has transferred approximately $18 million
to DHHS to conduct this evaluation.




U.S. Department of Labor - Office of Inspector General                                    Page 5
Welfare-to-Work Competitive Grant Program Performance Audit


                      FINDINGS AND RECOMMENDATIONS

 I.    Competitive Grantees Need to Improve Services to WtW Participants
       to Ensure Long-Term Employment


The purpose of WtW is to place individuals in lasting unsubsidized employment. Yet, based on
documentation available from the grantees, we found only 191, or one-quarter, of the 765
participants in our sample were documented as continuously employed more than 6 months,
whether in one or more jobs. Overall, 59 percent (451 of 765) of the sample participants worked
in unsubsidized employment at some point during or after their participation, and 31 percent (241
of 765) of the total were still employed at the time of our audit. We attribute this to the limited
efforts by grantees to follow up on participants in unsubsidized employment to determine if they
need job retention services. Specifically, at the time of our audit, we found that grantees had not
contacted or provided services in at least 3 months to 56 percent of the participants in our sample.
Additionally, the grantees did not know the current employment status at the time of our audit
field work for 110, or one out of four, of the 451 participants in unsubsidized employment. We
believe that maintaining contact with participants who are employed will help increase the
percentage of participants in lasting employment.

We also found that the case files for 418 of the 451 employed participants noted hourly wage
rates, which we did not confirm, that averaged $7.36. Additionally, three quarters of the
employed participants worked 30 hours or more per week. Details follow.



 One-Quarter of the Sample Participants
 Worked 6 or More Months in
 Unsubsidized Employment

We found that 25 percent (191 of 765) of the participants in our sample were documented as
working in one or more unsubsidized jobs for 6 or more months.

Of the 765 participants in our sample, 59 percent (451 of 765) were documented as having
worked in unsubsidized employment at some point during or after their participation in WtW. We
performed an analysis of the number of days worked in unsubsidized employment for these 451
participants. Our analysis was based on documentation available at the grantees for the
participants’ work histories since their initial placement in unsubsidized employment. We did not
confirm the participants’ work histories with the employers or any other outside sources. The
results of our analysis revealed that 185 participants worked in at least one unsubsidized job for
180 days or more. We also analyzed those participants who worked in multiple jobs less than 180


U.S. Department of Labor - Office of Inspector General                                      Page 6
Welfare-to-Work Competitive Grant Program Performance Audit

days. If the combined lapsed days for the multiple jobs was 180 days or more, we added them to
our list. There were six participants who fit this criteria. Together the two groups totaled 42
percent (191 of 451) of the employed participants or 25 percent (191 of 765) of the total
participants served.



 Participants’ Current Work Status Varied

Documentation showed that 59 percent (451of 7651) of the participants in our sample found,
either on their own or through direct and indirect efforts by grantees, jobs in unsubsidized
employment at some point during or after their participation in the WtW competitive grant
program. However, our determination of the 765 participants’ current employment status (either
subsidized or unsubsidized) at the time of our audit found that 31 percent (241 of 765) were
working. For those 451 participants who were working in unsubsidized employment at some
point in time during their participation in the WtW program, grantees did not know the current
employment status for 24 percent (110 of 451).

We reviewed the available documentation at the grantees to determine the current employment
status of the 765 participants in our sample who received WtW services. The following table
summarizes the results of the current status for the 765 participants.

     Current Status of 765 Participants Who Received WtW Services            Number        Percent to Total
       Employed, still receiving WtW services                                   179
       Employed, no longer receiving WtW services                                62
     Sub-total Employed (Subsidized and Unsubsidized Employment)                241              31%
     Unemployed, still receiving WtW services                                   155              20%
     Unemployed, no longer receiving WtW services                                82              11%
     Unknown, no longer receiving WtW services                                  287              38%
            Total                                                               765              100%




        1
          The 314 participants in our sample who were not working in unsubsidized employment were enrolled in
the WtW program for more than 120 days, which, in our opinion, was sufficient time for the grantees to place them
in unsubsidized employment.



U.S. Department of Labor - Office of Inspector General                                                  Page 7
Welfare-to-Work Competitive Grant Program Performance Audit

In our review of the services provided to WtW participants, we concluded that grantees were not
maintaining ongoing contact with participants to determine their current status and whether
further services were needed. As noted in the above table, 56 percent (431 of 765) of the
participants in our sample were no longer receiving services. We classified participants as no
longer receiving services if it had been more than 3 months since the last time a service was
provided or a contact made by the grantees. Additionally, grantees did not know the current
status at the time of our field work for 38 percent (287 of 765) of the sample participants served.

We also performed a separate analysis of the current employment status for those 451participants
whom we found that has worked in unsubsidized employment at some point during or after their
participation in the WtW competitive grant program. This is an important group since the
underlying purpose of WtW is to find participants unsubsidized employment. The results showed
that grantees did not know the current employment status for 24 percent (110 of 451) of the 451
participants who were in unsubsidized employment.

The following table summarizes the results of the current employment status for the 451
participants.

    Current Status of 451 Participants Who Worked in Unsubsidized
                                                                     Number      Percent to Total
    Employment
      Employed, still receiving WtW services                           174
      Employed, no longer receiving WtW services                        50
    Sub-total Employed (Subsidized and Unsubsidized Employment)        224            50%
    Unemployed, still receiving WtW services                            77            17%
    Unemployed, no longer receiving WtW services                        40              9%
    Unknown, no longer receiving WtW services                          110            24%
          Total                                                        451            100%


We believe that the percentage of participants who remain in lasting employment will increase if
grantees maintain contact with them once they are working in unsubsidized employment to
determine if and what additional services are needed.




U.S. Department of Labor - Office of Inspector General                                       Page 8
Welfare-to-Work Competitive Grant Program Performance Audit


 Participants in Unsubsidized Employment
 Earned Average Hourly Wages of $7.36

For the employed participants in our sample, there was insufficient wage information to determine
the average earnings increase by the second consecutive quarter following placement into
employment, one of WtW’s performance measures. However, our analysis found that the average
hourly wage documented in the case files for employed participants was $7.36. Further, our
analysis determined that 35 percent of the employed participants earned between $7.36 and $9.99
per hour. Additionally, a majority of the employed participants worked 30 or more hours per
week.

Of the 451 employed participants, we found wage information in the case files for 418. To be
conservative for our analysis, we used the highest recorded wage for any of the jobs that were
documented for these 418 participants. We computed that these participants earned an average
wage of $7.36 per hour. We then performed an analysis of the frequency of participants with
wages in various ranges starting at the $5.15 per hour minimum wage.

                 Range (per hour)      Number of Participants    Percent of Total

                  $5.15                          17                     4%

                  $5.16 to $7.36                222                    53%

                  $7.37 to $9.99                147                    35%

                  $10.00 and over                32                     8%

                  Total                         418                   100%


We also determined the number of employed participants who worked 30 or more hours per
week. Grantees are required to report separately those participants working 30 or more hours per
week (full time) and those participants working less than 30 hours per week (part time). For our
analysis, we counted a participant as working full time if any of the recorded employment history
documented 30 hours or more. For example, a participant initially had a job in which she worked
30-35 hours per week from September 18 to October 5, 2000. Then she obtained a subsequent
job on November 9, 2000, in which she only worked 7-11 hours per week. To be conservative,
we counted her as a placement in unsubsidized full-time employment.

Our analysis showed that 74 percent (334 of 451) of the participants in unsubsidized employment
worked 30 or more hours per week. However, there was no documentation of hours worked for
12 percent (56 of 451) of the participants who were working in unsubsidized employment.




U.S. Department of Labor - Office of Inspector General                                    Page 9
Welfare-to-Work Competitive Grant Program Performance Audit



 Recommendation

We recommend that the Assistant Secretary for Employment and Training direct the Office
of Welfare-to-Work to require grantees to follow up on participants in unsubsidized employment
to determine if additional services are needed to promote employment retention.

Agency’s Response

In the response to our draft report, the Assistant Secretary for Employment and Training stated
that ETA will work with competitive grantees to assure that they do a better job of following up
with participants in unsubsidized employment to determine if additional services are needed to
assure employment retention.

Auditor’s Conclusion

The action that ETA proposes to take generally satisfies the recommendation. The
recommendation can be resolved when ETA provides an action plan detailing the specific steps to
be taken along with proposed completion dates.




U.S. Department of Labor - Office of Inspector General                                   Page 10
Welfare-to-Work Competitive Grant Program Performance Audit


 II. WtW Competitive Grant Program Performance Data Are Not Reliable
     and the Current Evaluation Approach May Not Be Sufficient to Assess
     the Program as a Whole


We found that the reported performance data are not reliable. Specifically, we found that
competitive grantees did not report consistent and accurate performance data because they did
not maintain accurate records and/or they did not understand, or did not adhere to, the definitions
of individual data elements included in ETA’s reporting instructions. While ETA had made
numerous efforts to train grantees concerning their financial reporting requirements, ETA
monitoring visits did not include any attempt to verify the accuracy and completeness of reported
performance data. We also found that the current approach to evaluating the WtW competitive
grant program may not be sufficient to determine which innovative approaches or interventions
worked in placing participants in lasting unsubsidized employment. Without consistent and
accurate performance data, and an effective program-wide evaluation process, ETA will not be
able to provide a useful measurement of competitive grantees’ efforts to move WtW participants
into self-sustaining employment.

Because we examined only competitive grant performance reporting, it was not within our audit
scope to draw a conclusion on the accuracy of the overall (competitive and formula) WtW
statistics included in the DOL Annual Report on Performance and Accountability. However,
because the competitive grant program represents roughly a quarter of the total WtW program,
the inaccurate competitive grant performance data we identified through audit could be significant
to the overall WtW reported measures.



 Competitive Grantees Did Not Report
 Accurate Performance Data

The performance data for the WtW competitive grant program are overstated, incomplete, and
inconsistent with ETA reporting requirements. This occurred because grantees did not maintain
accurate records and/or they did not understand, or did not adhere to, ETA’s definitions for the
individual data elements.

At each of the grantees, we audited the FSR line items containing data used by ETA to report
WtW performance in the DOL Annual Report on Performance and Accountability required under
GPRA. Except for the earnings gained in the 6 months following initial placement in unsubsidized
employment (Line 25), a sample of participants for each of the FSR lines was reviewed to
determine the accuracy of the data reported on the September 30, 2000, FSR. (See table below.)



U.S. Department of Labor - Office of Inspector General                                     Page 11
Welfare-to-Work Competitive Grant Program Performance Audit

For the reported earnings gained in 6 months following initial placement in unsubsidized
employment, we reviewed the supporting documentation available at the grantees. The FSR line
items and sample sizes audited were:

                                                    Line Item                                              Sample Size
                    Total Participants Served2 (Line 19)                                                          810
                    Placed in Unsubsidized Employment (Line 21)
                       Working 30 or More Hours Per Week                                                          957
                       Working Under 30 Hours Per Week                                                            156
                    Retained 6 Months (two quarters) Following
                                                                                                                  210
                    Placement in Unsubsidized Employment (Line 24)

Additionally, as part of our review of a sample of participants reported as served, we determined
whether these participants should have been reported as a termination on FSR Line 20. (See
discussion under Total Participants Terminated on page 13.)

For each FSR line audited, we used the results of our sample to project the percentage of errors
found to our universe of 122 first- and second-round grantees. The following findings first
provide the percentage of errors found in the number of samples reviewed and then provide the
point estimate projections to the universe. There were two grantees that had significantly
overstated the number of participants served and placed in unsubsidized employment when
compared to the reported number in their supporting list of participants. We provide details of
the problems found at these two grantees in our discussion of the applicable line items, but we did
not use the results in our projections. The high error rates for these two grantees would have
increased our sampling error. Thus, by omitting these two grantees, our point estimates are
understated. (See the Objectives, Scope, and Methodology section of this report for details of the
sampling methodology and precision.)

The following sections present the results of our audit of the accuracy of the reported
performance data.

Participants Served

The number of participants who received WtW services is overstated. We found that 17 percent
(139 of 810) of the reported participants served in our sample did not receive WtW services while


           2
             Line Item 19a reports the number of participants that are determined to be the hardest-to-serve, long-term TANF recipients, and Line
Item 19b reports the number of participants that are TANF recipients with characteristics of long-term welfare dependence.



U.S. Department of Labor - Office of Inspector General                                                                                  Page 12
Welfare-to-Work Competitive Grant Program Performance Audit

enrolled in the program. This occurred because of inaccurate record keeping, inadequate
documentation, and failure of grantees to distinguish between enrollment and services provided to
participants. Using the point estimate obtained from our sample results, we project that the
53,035 participants reported served by the 122 competitive grantees in our universe is overstated
by 16 percent.

Grantees are required to maintain accurate and supportable records of data reported.
Additionally, the FSR instructions for reporting participants served make a clear distinction
between the intake, initial assessment and eligibility determination process, and the actual
provision of WtW services. ETA encourages grantees to enroll individuals once they are
determined eligible, but not to report them as a participant served until they actually receive WtW
services.

Grantees did not always maintain an accurate list of names for reported participants served which
was used to support the number reported on their FSRs for September 30, 2000. We found
differences between the list of names and the reported totals. Additionally, we found instances in
which some grantees could not locate a case file or documentation to support what services they
provided to the participants in our sample.

We also found that some of the reported participants in our sample were counted as served, even
though they had completed only the intake process and declined any WtW services offered. For
example, one grantee required each applicant to take and pass a drug test and to obtain a police
clearance. Many applicants did not return and the grantee had no procedures in place to locate
the applicants. The result was that the grantee reported each applicant as a participant served
when, in fact, the grantee had no real opportunity to provide WtW services to the applicant. In
another example, a grantee, whose principal client group were individuals with substance abuse
problems, referred applicants to a contractor for a drug evaluation and treatment plan, if
appropriate. Some applicants refused to accept the treatment plan and others were referred to a
drug treatment facility. In both instances, the applicant was counted as a participant served even
though he or she never completed the grantee’s intake process and was not available to receive
WtW services.

There were two grantees that had significant differences between the total number of participant
names on their list and the number reported on the September 30, 2000 FSR. As previously
stated, we excluded the results of these two grantees from our projections because of their high
error rates. The first grantee reported serving 2,929 participants but could only provide a list with
990 participant names, an overstatement of 1,939 participants, or 196 percent. The second
grantee reported serving 1,745 participants but could only provide a list with 886 participants, an
overstatement of 859 participants, or 97 percent.




U.S. Department of Labor - Office of Inspector General                                      Page 13
Welfare-to-Work Competitive Grant Program Performance Audit

Total Participants Terminated

We found that 65 percent (527 of 810) of the reported participants served in our sample should
have been reported as a termination on FSR Line 20 - Total Participants Terminated. Grantees
were not always reporting terminations because ETA encouraged grantees not to abandon
participants who still needed additional WtW services. As a result, the status of participants
receiving WtW services is misstated. Using the point estimate obtained from our sample results
of the 810 reported participants served, we project that 67 percent of the 53,035 participants
reported served by the 122 competitive grantees in our universe had not received a service in 3
months since the last contact by the grantee and should have been terminated. However, only 12
percent of the 810 participants in our sample were reported as a termination.

ETA’s reporting instructions state that once a participant ceases to be served, he or she should be
reported as a termination. The instructions also state that if the participant returns for additional
services, he or she should be counted again as a participant served. ETA’s instructions did not
provide a specific time period when grantees should consider a participant as no longer receiving
services. Therefore, for purposes of our audit, we determined that a participant should be
considered terminated if more than 3 months had elapsed since the last documented service or
contact by the grantee.

We found that in many instances grantees had either lost contact with individuals, ceased
providing WtW services, or had no mechanism in place to locate participants. There were 7
grantees in our sample of 19 that reported no terminations at all on their FSRs. Grantee officials
told us that they did not report terminations because ETA verbally requested that they not do so.
ETA’s intent was to encourage grantees not to abandon participants who might still need services,
but rather to remain in periodic contact with the participants to determine whether additional
WtW services could be provided. However, our analysis and interviews conclude that grantees
simply applied the informal non-termination policy across the board and did not set up followup
systems to contact participants.

The net effect of not reporting terminations is the misstatement of the status of participants
receiving WtW services. Specifically, if terminations are not reported, it must be assumed that all
participants being reported as served are receiving WtW services on a current or ongoing basis.




U.S. Department of Labor - Office of Inspector General                                       Page 14
Welfare-to-Work Competitive Grant Program Performance Audit

Placed in Unsubsidized Employment

Grantees report participants placed in unsubsidized employment by the number who work 30 or
more hours per week and those who work under 30 hours per week. Our sample of 957
participants reported as working 30 hours or more per week in unsubsidized employment was
overstated by 27 percent and our sample of 156 participants reported as working less than 30
hours per week in unsubsidized employment was overstated by 49 percent. This occurred
because grantees did not have documentation to support the placement, they misclassified the
type of employment which should have been reported on another FSR line, and/or the participants
never received a WtW service. Using the point estimate obtained from our sample results, for the
122 competitive grantees in our universe, we project that the 19,243 participants reported
working 30 hours or more per week in unsubsidized employment is overstated by 27 percent, and
the 3,932 reported as working less than 30 hours per week in unsubsidized employment is
overstated by 43 percent.

In reviewing documentation, if the participant’s file contained any information that supported the
unsubsidized employment consistent with ETA’s reporting instructions, we accepted it as a bona
fide placement. We provided grantees the opportunity to obtain additional documentation for any
unsubsidized placement questioned. In reviewing employment classification, if the placement did
not meet the definition for this line item but did meet the definition for another type of placement,
e.g., employed in unsubsidized employment upon entering WtW, we recommended that the
grantee transfer the placement to the appropriate line item.

The results of our review found that 260 of the 957 participants in our sample should not have
been reported by the grantee as working 30 hours or more per week in unsubsidized employment
and that 76 of the 156 participants in our sample should not have been reported as working less
than 30 hours per week in unsubsidized employment. The following table lists the number of
occurrences for each type of error and its percentage to the total for both parts of participants
placed in unsubsidized employment.

                                                More Than                Less Than
                                                              Percent                Percent
                    Type of Error                30 Hours                30 Hours
                                                              to Total               to Total
                                                per Week                 per Week
        No Documentation                           156         60%          48         63%
        Should be Reported on Line Item 22 -
                                                    54         21%           6          8%
        Employed When Entering WtW
        Worked Less than 30 Hours Per Week          50         19%
        Worked 30 Hours or More Per Week                                    22         29%

              Total Errors                         260                      76




U.S. Department of Labor - Office of Inspector General                                       Page 15
Welfare-to-Work Competitive Grant Program Performance Audit

In addition to the errors presented in the above table, there were two grantees at which we found
significant differences between the grantees’ list of participants and the numbers reported. One
grantee reported 1,477 participants placed in unsubsidized employment greater than or equal to
30 hours per week while the actual number placed was only 296 participants, an overstatement of
1,181 placements, or 399 percent. The second grantee reported 503 participants placed in
unsubsidized employment greater than or equal to 30 hours per week while the actual number
placed was only 325 participants, an overstatement of 178 placements, or 55 percent.

Retained 6 Months (Two Quarters) Following Placement in Unsubsidized Employment

The number of participants retained 6 months (two quarters) following the quarter of placement
in unsubsidized employment (Line 24) is grossly overstated. We found that 82 percent (172 of
210) of the participants in our sample were either not working in unsubsidized employment, did
not remain employed for 6 months with earnings in the two consecutive quarters following
placement, or the grantees were reporting data on a cumulative basis, rather than on a quarterly
basis required by ETA reporting instructions. As a result, using the point estimate obtained from
our sample results of the 210 reported participants, we project that the 6,479 participants
reported as retained 6 months in unsubsidized employment by the 122 competitive grantees in our
universe is overstated by 86 percent.

ETA reporting instructions in effect for the period ending September 30, 2000, require grantees
to report the number of participants retained 6 months in unsubsidized employment on a quarterly
basis. Therefore, all participants reported as retained 6 months following placement in
unsubsidized employment should have been placed in unsubsidized employment during the first
quarter of calender year 2000 and should have remained in the workforce for 6 months with
earnings in two consecutive quarters. Also, any participant who was employed in unsubsidized
employment upon entering WtW and remained in the workforce for 6 months with earnings in
two consecutive quarters following the receipt of WtW services should have been reported as
retained 6 months following placement in unsubsidized employment.

We found that 3 of the 19 grantees in our sample did not report performance data for participants
retained 6 months following placement in unsubsidized employment. For the remaining 16
grantees, 11 reported the number of participants retained 6 months following placement in
unsubsidized employment on a cumulative, rather than quarterly, basis. These 11 grantees
accounted for 93 percent of the data reported by the 16 grantees that completed this line item.
Cumulative reporting results in an overstatement of retention placements when data from another
reporting period is added to the current reporting period and used to measure performance. To
illustrate, one grantee reported 498 participants retained 6 months in unsubsidized employment
when, in fact, the actual number for this reporting period was zero. Another example is a grantee
which reported 386 participants retained 6 months in unsubsidized employment while the actual
number for this reporting period was 35 participants.



U.S. Department of Labor - Office of Inspector General                                   Page 16
Welfare-to-Work Competitive Grant Program Performance Audit

We also concluded that grantees did not understand the significance of taking credit for WtW
participants who were employed in unsubsidized employment upon entering WtW, and, therefore,
did not report these participants as employed in unsubsidized employment upon entering WtW or
as remaining in the workforce for 6 months with earnings in two consecutive quarters following
the receipt of WtW services on the FSR. Therefore, we believe that placement data reported for
participants who were employed upon entering WtW is understated.

The following table contains the number of occurrences for each type of error and its percentage
to the total for the number of participants retained 6 months following placement in unsubsidized
employment.

                                                                                Percent to
                             Type of Error                        Occurrences
                                                                                  Total

        Incorrect Time Period - Participant Was Not Employed in
                                                                      85          50%
        the First Quarter of 2000

        No Documentation to Support Participant Was Employed
                                                                      50          29%
        Two Full Quarters

        Unable to Determine Dates of Employment                       21          12%

        No Documentation of Employment                                16            9%

              Total Errors                                           172


It should be noted that ETA changed the reporting requirements for participants retained 6
months following placement in unsubsidized employment effective for the period ending June 30,
2001. This was communicated to grantees as part of the ETA Field Memorandum No. 38-98,
Change 2, dated April 5, 2001. These revised instructions direct all grantees that have not been
reporting on a cumulative basis to accumulate all previously submitted data and include that data
as part of all cumulative data required for the period ending June 30, 2001.

Earnings Gained in 6 Months (Two Quarters) Following Placement in Unsubsidized
Employment

The reported earnings gained in 6 months following placement in unsubsidized employment is
overstated. We found that the reported data was either not supported, incomplete, inaccurate, or
misstated. This occurred because the grantees in our sample could not provide documentation to
support the reported wage gains, used an improper reporting methodology, misinterpreted ETA
reporting instructions, or did not report any wage data at all.

The reported earnings gained in 6 months following placement in unsubsidized employment (Line
25) consists of two parts. The first part (Line 25a ) is the sum of earnings of WtW participants



U.S. Department of Labor - Office of Inspector General                                       Page 17
Welfare-to-Work Competitive Grant Program Performance Audit

who remained in the workforce in the second subsequent quarter following their placement in
unsubsidized employment in the base quarter. The second part (Line 25b) is the sum of earnings
for these same WtW participants in the base quarter. Both parts are based upon reported earnings
for WtW participants retained 6 months following placement in unsubsidized employment. ETA
reporting instructions require grantees to use Unemployment Insurance (UI) wage records or,
alternatively, to collect information related to participant retention and earnings gained.

We found that only 3 of the 19 grantees (16 percent) in our sample had access to UI wage data.
The grantees that did not have access to UI wage data developed formulas to compute potential
wages earned during the appropriate period. Grantees also applied varying interpretations about
what constituted 6 months in the workforce with earnings in two consecutive quarters following
placement in unsubsidized employment.

There were two grantees in our sample that did not report earnings gains on their FSRs. Neither
grantee had access to UI wage data nor had developed a followup system to track participants
and their wages once they were placed in unsubsidized employment.

For the 17 grantees that reported earnings gains data, 14 were unable to provide complete and
adequate documentation to support the wage data reported on their FSRs. Additionally, 13
grantees used improper and unsupportable methodologies to calculate the earnings gain, and
several of these based their data on assumptions rather than actual wages. For example, one
grantee took the hourly wage at placement and calculated the earnings for the requisite periods,
assuming that the participant actually worked. However, the grantee did not confirm wages
earned or the period actually worked.

We also found that grantees did not follow ETA reporting instructions requiring earning gains
data to be reported on a quarterly basis. Instead, we found that 11 grantees were improperly
reporting such data on a cumulative basis. Overall, $1,198,875 of $1,739,695 (69 percent) of
the sum of the earnings for those retained in the second subsequent quarter (Line 25a) on the
September 30, 2000, FSR was presented on a cumulative basis. In addition, $1,031,372 of
$1,217,209 (85 percent) of the sum of earnings for the same group in the base quarter (Line 25b)
was reported on a cumulative basis. Cumulative reporting results in an overstatement of earnings
gains when data from another reporting period is added to the current reporting period and used
to measure performance.

                                          * * * * *

We conclude that inadequate documentation and failure to adhere to ETA reporting instructions
are major contributors to the problems found during this audit concerning the quality of the
performance data. Unless performance data is reviewed at the grantee level, there is no assurance
that it is accurate and complete.



U.S. Department of Labor - Office of Inspector General                                    Page 18
Welfare-to-Work Competitive Grant Program Performance Audit


 ETA’s Grantee Monitoring Visits Did Not
 Include a Detailed Review of the Reported
 Performance Data

ETA needs to improve its monitoring of reported performance data at the grantee level to ensure
that the reporting system conforms with ETA reporting instructions and provides accurate and
supportable data. We found that the monitoring visits performed by the Grant Officer’s Technical
Representatives (GOTRs) did not include an in-depth review of the performance data reported on
the FSR. This occurred because the monitoring guide used by GOTRs did not include verifying
the accuracy of reported performance data.

We found that 15 of 19 grantees in our sample had been monitored by a GOTR. Our review of
the monitoring reports found that they addressed eligibility, financial management, program
design, program performance, policies and procedures, and program management. However,
none of the monitoring visits focused specifically on the reported performance data. For example,
we found that the two grantees that had significant discrepancies in the data reported were
monitored by their GOTRs, but the accuracy of the performance data was never reviewed. One
of these grantees reported serving 2,929 participants, but could only provide us a list of names for
990 participants. This grantee also reported 1,477 participants placed in unsubsidized
employment greater than or equal to 30 hours per week, but could only provide us a list of names
for 296 participants.

We did find that five of the monitoring visits by GOTRs raised issues concerning performance
data. For example, the GOTRs were concerned with the grantee’s ability to obtain UI wage data.
We found that one GOTR was concerned that a grantee was under-reporting unsubsidized
placements. However, there was no evidence that the GOTRs attempted to validate the accuracy
of the data.

We attribute the above conditions to the lack of appropriate procedures for reviewing
performance data in the ETA monitoring guide. Although the monitoring guide used by the
GOTRs contains comprehensive procedures for reviewing the reported financial data, it does not
require the GOTR to review grantee records to determine either the accuracy or completeness of
the performance data reported on the FSR. ETA officials told us that they acknowledge that
monitoring of performance data needs to be improved but their priorities were to focus on the
problems reported in previous audit reports.




U.S. Department of Labor - Office of Inspector General                                     Page 19
Welfare-to-Work Competitive Grant Program Performance Audit


 Unreliable Competitive Grant Data May
 Affect the Overall WtW GPRA
 Performance Measure Results

As previously discussed, our audit determined that performance data reported by the WtW
competitive grantees are overstated, not supportable, and inconsistent with ETA instructions.
Such data were used to report against program measures included in DOL’s FY 2000 Annual
Performance Plan, which included two performance goals for the WtW program. These goals,
which are consistent with the outcome measures included in the WtW legislation, were to increase
the retention rate and average earnings for WtW participants. DOL’s FY 2000 Annual Report on
Performance and Accountability provided the results attained against these goals for the WtW
program as a whole, including both competitive and formula grants. The retention rate was
reported as 84 percent, compared to a goal of 60 percent, and the reported earnings increase was
59 percent, compared to a goal of 5 percent.

Because we examined only competitive grant performance reporting, it was not within our audit
scope to draw a conclusion on the accuracy of the overall (competitive and formula) WtW
statistics included in the DOL Annual Report on Performance and Accountability. However, as
the competitive grant program represents roughly a quarter of the total WtW program, the
inaccurate competitive grant performance data we identified through audit could be significant to
the overall WtW reported measures.



 Evaluation Studies Will Not Provide the
 Information Necessary to Determine
 Which Innovative Approaches Worked

The WtW evaluation studies, current and planned, are not designed to provide ETA with the
information necessary to determine which innovative approaches or interventions worked and
which did not, the underlying purpose of the competitive grant program. The evaluations only
measure specific grantee operations that may not necessarily reflect the program as a whole. As a
result, ETA will not have sufficient information on the WtW competitive grant program to expand
the base of knowledge about programs aimed at moving the least job-ready welfare recipients into
unsubsidized employment.

The WtW legislation states that DHHS, in consultation with DOL and the U.S. Department of
Housing and Urban Development, is responsible for developing a plan to evaluate the WtW grants
program. In August 1998, DHHS awarded a contract to Mathematica Policy Research, Inc.
(Mathematica), and its subcontractor, the Urban Institute and Support Services International,
Inc., to conduct the evaluation. The original evaluation plan included three main components:


U.S. Department of Labor - Office of Inspector General                                    Page 20
Welfare-to-Work Competitive Grant Program Performance Audit

               1.   A Descriptive Assessment of All WtW Grantees
               2.   In-Depth Process and Implementation Study
               3.   Impact and Cost-Effectiveness Study

The Impact and Cost-Effectiveness study was eliminated due to serious low enrollment and
expenditure problems experienced during the early stages of the WtW program. In addition,
several applicants’ WtW services could not be readily distinguished from, or appeared to
duplicate, local TANF services. Mathematica has issued a number of reports from the evaluation
since March 1999. However, these reports provided information on design, operations, and
findings on the early implementation of the WtW program.

The In-Depth Process and Implementation Study came closest to meeting ETA’s objective to
expand the base of knowledge about programs aimed at moving the least job-ready welfare
recipients into unsubsidized employment. However, this study cannot be used to draw program-
wide conclusions because the results pertain only to the 11 grantees selected to participate in it.
Additionally, only 2 of the 11 grantees were competitive grantees; another 6 grantees received
formula funds only; and the remaining three received both formula and competitive grants. We
were told that the 11 grantees were judgmentally selected using a diverse set of criteria
established by the Office of Management and Budget and that the results cannot be projected
across the WtW program. In January 2001, Mathematica issued a report from this study based on
a first round of site visits conducted in 1999 and 2000. The report, entitled “Program Structure
and Service Delivery in Eleven Welfare-to-Work Grant Programs,” contains a statement that the
descriptions included therein are based on visits to these 11 local programs, and that, while a few
general observations are possible, it is important to note that they are based upon experiences of
these sites only and cannot be extrapolated to all WtW programs nationwide.

Since the competitive grant performance data reported to ETA on the FSRs is highly questionable
and the utility of the Mathematica evaluation limited, ETA is left without a solid basis to fully
judge the performance of the WtW competitive grants program. An evaluation methodology
should be developed to assess the effectiveness of the innovations that the competitive grants
were funded to provide.

                                          * * * * *

Because of the hundreds of millions of dollars awarded to competitive grantees for the purpose of
finding non-traditional methods of keeping long-term welfare recipients in lasting employment,
ETA needs to ensure that there is a solid foundation for evaluating the WtW competitive grant
program. To achieve this, ETA needs to have accurate and complete performance data and an
evaluation process that addresses the effectiveness of the various innovative approaches and
interventions used by competitive grantees to determine which approaches worked and why they
worked.



U.S. Department of Labor - Office of Inspector General                                    Page 21
Welfare-to-Work Competitive Grant Program Performance Audit


 Recommendations



We recommend that the Assistant Secretary for Employment and Training:

     1. Direct the Office of Welfare-to-Work to conduct data validation reviews at the grantee
        level to ensure that the performance data being reported are accurate and complete. We
        also recommend that all performance data previously reported to ETA be reviewed for
        accuracy and completeness.

     2. Consult with DHHS officials to reexamine the current approach being used to evaluate
        the WtW grants program. We also recommend that any national evaluation be designed
        to assess the innovative approaches used to move welfare recipients from welfare
        dependency to economic self-sufficiency.


Agency’s Response

In the response to our draft report, the Assistant Secretary for Employment and Training stated
that ETA will:

     1. carry out their previously planned second stage of monitoring by conducting data
        validation reviews at the grantee level to ensure that the performance data being
        reported are accurate and complete; and

     2. work with the U.S. Department of Health and Human Services to re-examine the current
        approach being used to evaluate the WtW competitive grant program in order to assure
        that innovative approaches being used to move welfare recipients from welfare
        dependency to economic self-sufficiency are identified and assessed.

Auditor’s Conclusion

The action that ETA proposes to take generally satisfies the recommendation. The
recommendation can be resolved when ETA provides an action plan detailing the specific steps to
be taken along with proposed completion dates.




U.S. Department of Labor - Office of Inspector General                                   Page 22
Welfare-to-Work Competitive Grant Program Performance Audit


           OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


                             The primary audit objective was to evaluate the WtW competitive
 Objectives
                             grant program’s effectiveness based upon the criteria established in
                             the BBA and the WtW regulations, and the performance data
reported by first- and second-round competitive grantees as of September 30, 2000. Our
secondary objectives were to determine:

     1. the rate at which participants served in the WtW competitive grant program, found long-
        term unsubsidized employment, and the amount of earnings gained 6 months following
        their initial entry into unsubsidized employment;

     2. whether ETA has reliable performance data to adequately evaluate the WtW competitive
        grant program;

     3. whether competitive grantees are meeting the individual performance goals established
        in the grant agreement; and

     4. if ETA established an effective evaluation process of the WtW competitive grant
        program objective to expand the knowledge base of effective and innovative strategies
        for moving WtW participants into unsubsidized employment.


                              To accomplish our objectives, we performed audit work at 19
 Scope
                              randomly selected WtW competitive grantees. These grantees were
                              selected from a universe of 122 grantees that were active as of
September 30, 2000, providing services to WtW participants with the intent of placing them in
unsubsidized employment,3 and were awarded grants in the first and second rounds. We
restricted the scope to grantees in the first and second rounds, which were awarded in July 1998
and January 1999 respectively, because there should have been a sufficient period of time (19-26
months) for the grantees to provide services to participants and attempt to place them in
unsubsidized employment. The third round was awarded in September 1999.




       3
           We did not include in our universe two grantees that only provided transportation assistance.



U.S. Department of Labor - Office of Inspector General                                                     Page 23
Welfare-to-Work Competitive Grant Program Performance Audit

The following table contains details on the grant funds awarded and performance data as of
September 30, 2000, for all competitive grantees, the 122 first and second round competitive
grantees from which our sample was selected, and 19 competitive grantees that were audited.


                                          All         Audit Universe    Percent of
                                       Competitive     of First- and      Audit
                                                                                       Data for
                                        Grantees      Second-Round     Universe to
         FSR Data Element                                                            19 Grantees
                                                         Grantees          All
                                                                                     Selected for
                                                                       Competitive
                                                                                        Audit
                                       189 Grantees   122 Grantees      Grantees


 Grant Award Amount                    $708,309,238    $459,334,812       65%        $75,172,161

 Grant Expenditures                    $239,228,261    $200,342,085       84%        $36,945,994

 Total Participants Served                   81,469          53,035       65%             13,689

 Participants Placed in Unsubsidized
 Employment

   30 or More Hours per Week                 23,795          19,243       81%              5,952

   Less Than 30 Hours per Week                4,144           3,932       95%               643

 Retained 6 Months in Unsubsidized
                                              7,078           6,479       92%              1,680
 Employment

 Earnings of Those Retained in 2nd
                                         17,196,144      15,722,389       91%         $1,741,993
 Subsequent Quarter

 Sum of Earnings as Same Group in
                                         11,550,993      10,289,259       89%         $1,170,582
 Base Quarter


See Appendix A for a list of the 19 grantees selected for audit.

The sampling methodology used was a stratified, two-stage, cluster sampling design. The
grantees were separated into four strata. The first stratum consisted of grantees identified as
outliers by a regression analysis of the reported number of participants served, those placed in
unsubsidized employment, and those working in unsubsidized employment for 6 months following
entry into employment. The remaining three strata were based on the number of participants
served. The following table describes the strata and the number of grantees in each.




U.S. Department of Labor - Office of Inspector General                                      Page 24
Welfare-to-Work Competitive Grant Program Performance Audit



                                                                          Total Number of                   Number of Sampled
       Strata                       Description
                                                                             Grantees                           Grantee

           1                          Outliers                                        5                                   5

           2               0-299 Participants Served                                49                                    5

           3             300-599 Participants Served                                47                                    5

           4         More Than 600 Participants Served                              21                                    4

                                                             Total                 122                                  19


Next, a random sample size was determined for each FSR Line Item tested. The FSR Line Items
tested and sample size were:

       Line Item                                                     Description                                                 Sample

               19         Total Participants Served (Line Items 19a and 19b)4                                                        810

               21a        Total Placed in Unsubsidized Employment 30 Hours or More per Week                                          957

               21b        Total Placed in Unsubsidized Employment Less than 30 Hours per Week                                        156

               24         Total Retained 6 Months Following Initial Placement in Unsubsidized                                        210
                          Employment

                                                                                                             Total Sample          2,133


Using random numbers, a sample of participants for each line item was selected for audit. The
sample design was selected to yield a plus or minus 10 percent sampling precision at a
90 percent confidence level.

The population parameters with their standard errors were estimated using Taylor’s linearization
methodology. The survey data analysis (SUDAAN) software was selected for this purpose using
a stratified, two-stage cluster design and sampling without replacement methodology. The
statistical weights were determined and used to compensate for unequal probability of selection of
the grantees and final sampling units within the sample selected grantees. Appendix B provides
the results of our sampling results.

Our audit scope did not include participant eligibility.



           4
             Line Item 19a reports the number of participants that are determined to be the hardest-to-serve, long-term Temporary Assistance for
Needy Families (TANF) recipients, and Line Item 19b reports the number of participants that are TANF recipients with characteristics of long-term
welfare dependence.



U.S. Department of Labor - Office of Inspector General                                                                                 Page 25
Welfare-to-Work Competitive Grant Program Performance Audit

                             We interviewed WtW officials at ETA’s National Office to gain an
 Methodology
                             understanding of how WtW performance data is collected, analyzed,
                             and reported in DOL’s Annual Report on Performance and
Accountability. We interviewed officials at the contractor responsible for the WtW program
national evaluation. At the grantees, we interviewed officials responsible for administering the
grant and obtained an understanding of the methodology used to document, compile, and report
WtW performance data.

To determine the accuracy of performance data reported by the grantees in our sample, we
reviewed a random sample of participant case files and other documentation available to support
the reported data. We concluded that the reported data was an error, if there was insufficient
supporting documentation. We provided grantees the opportunity to obtain additional
documentation to support any data we initially concluded was an error.

To determine the outcomes of participants served by the grantees, we used the sample of 765
participants who received a WtW service. We determined the participants’ current status based
on the available information in the participants’ casefiles and other supporting documentation that
the grantee could provide.

At the end of the field work, we provided to each grantee a statement of facts documenting the
audit results and requesting a response and additional documentation to refute any reported item.

We designed our audit to project the results found to the audit universe of the 122 competitive
grantees from which we selected the sampled 19 grantees. This was accomplished for our
objective to determine the accuracy of the reported performance data. However, we could not
project the results of the outcomes found for the 765 sampled participants who received services
because of sampling problems at one grantee. This was our initial site visit and we did not collect
a sufficient number of samples that met the required attributes. However, we believe the results
are an indication of the outcomes of participants served by competitive grantees.

The audit was conducted from November 2000 through July 2001, and was performed in
accordance with Government Auditing Standards for performance audits issued by the
Comptroller General of the United States.




U.S. Department of Labor - Office of Inspector General                                     Page 26
Welfare-to-Work Competitive Grant Program Performance Audit



                           The following criteria were used in performing our audit:
 Criteria


   • Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)

   • Balanced Budget Act of 1997

   • Title 20 of the Code of Federal Regulations, Part 645, WtW Grants, Interim Rule dated
     November 18, 1997

   • DOL ETA Training and Employment Guidance Letters on WtW




U.S. Department of Labor - Office of Inspector General                                 Page 27
Welfare-to-Work Competitive Grant Program Performance Audit

                                                                                 APPENDIX A

                     WtW COMPETITIVE GRANTEES AUDITED

               Number of
   Strata                                            Grantee Name
               Grantees
                                Institute for Responsible Fatherhood and Revitalization
                                Hispanic Association of Colleges and Universities
      1             5           DePaul University
                                Houston Works
                                Goodwill Industries of San Antonio
                                The Latin Chamber of Commerce of U.S.A
                                The Access Agency, Inc.
     2              5           Community Action Council
                                Alexandria Redevelopment and Housing Authority
                                Washington State Labor Council, AFL-CIO
                                City of Long Beach
                                Buffalo and Erie County PIC
     3              5           Private Industry Council of Milwaukee County
                                Prince Georges PIC
                                Charo Community Development Corporation
                                Private Industry Council of Philadelphia, Inc.
                                Coalition for the Homeless
     4              4
                                Marriott International, Inc.
                                United Way of Central Alabama
   Total            19




U.S. Department of Labor - Office of Inspector General                               Page 28
Welfare-to-Work Competitive Grant Program Performance Audit

                                                                                  APPENDIX B


                              RESULTS OF STATISTICAL SAMPLES


                                                                          Confidence Limits
                                         Universe    Point     Sampling         90%
          Attribute Projected
                                           Size     Estimate    Error
                                                                          Lower      Upper

  Total Participants Served                53,035     16%        5%        8%         24%

  Placed in Unsubsidized Employment

     Greater Than or Equal to 30 Hours
                                           19,243     27%        3%       22%         32%
     Per Week

     Less Than 30 Hours Per Week            3,932     43%        8%       30%         56%

  Retained 6 Months in Unsubsidized
                                            6,479     86%        5%       78%         94%
  Employment




U.S. Department of Labor - Office of Inspector General                                 Page 29
Welfare-to-Work Competitive Grant Program Performance Audit

                                                              APPENDIX C




                     AGENCY’S RESPONSE TO DRAFT REPORT




U.S. Department of Labor - Office of Inspector General            Page 30
